               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR

                                                                               NOV 1.5 2012
Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall             ~~~· lfl~                            ke_..,..iLJl)
               Deputy Inspector General

Subject:       Independent Auditors' Report on the U.S. Department of the Interior Financial
               Statements for Fiscal Years 2012 and 2011
               Report No. X-IN-MOA-0002-2012

Introduction

       This memorandum transmits the KPMG LLP (KPMG) auditors' report of the U.S.
Department of the Interior (DOl) financial statements for fiscal years (FYs) 2012 and 2011. The
Chief Financial Officers Act of 1990 (Public Law 101-576), as amended, requires the DOl
Inspector General or an independent auditor, as determined by the Inspector General, to audit the
DOl financial statements.

       Under a contract issued by DOl and monitored by the Office of Inspector General (OIG),
KPMG, an independent public accounting firm, performed an audit of the DOl FY 2012 and FY
2011 financial statements. The contract required the audit to be performed in accordance with the
generally accepted Government Auditing Standards, issued by the Comptroller General ofthe
United States and Office of Management and Budget Bulletin No. 07-04, "Audit Requirements
for Federal Financial Statements."

Results of Independent Audit

        In its audit report, KPMG issued an unqualified opinion on the DOl financial statements.
KPMG identified three significant deficiencies in internal controls over financial reporting. In
addition, KPMG identified one instance in which DOl did not comply with laws and regulations,
specifically the Single Audit Act Amendments of 1996.

        KPMG performed auditing procedures at Departmental Offices, Indian Affairs, Bureau of
Reclamation, National Park Service, U.S. Geological Survey, Bureau of Land Management, U.S.
Fish and Wildlife Service, Bureau of Ocean Energy Management, Regulation and Enforcement,
and Office of Surface Mining, Reclamation and Enforcement to support the DOl consolidated
financial statement audit.




                               Office of Inspector General I Washington, DC
Evaluation of KPMG Audit Performance

       To ensure the quality of the audit work performed, OlG-

       •      reviewed KPMG's approach and planning of the audit;
       •      evaluated the qualifications and independence of the auditors;
       •      monitored the progress of the audit at key points;
       •      coordinated periodic meetings with DOl management to discuss audit progress,
              findings, and recommendations;
       •      reviewed KPMG's audit report; and
       •      performed other procedures we deemed necessary.

        KPMG is responsible for the attached report and the conclusions expressed therein. We
do not express an opinion on DOl financial statements nor on KPMG's conclusions regarding the
effectiveness of internal controls or compliance with laws and regulations.

Report Distribution

         The legislation creating OlG requires semiannual reporting to Congress on all audit
reports issued, actions taken to implement audit recommendations, and unimplemented
recommendations. Therefore, we will include a summary of the information contained in the
attached audit report in our next semiannual report. The distribution of the report is not
restricted, and copies are available for public inspection.

       We appreciate the cooperation and assistance ofDOl personnel during the audit. lfyou
have any questions regarding the report, please contact me at 202-208-5745.


Attachment




                                               2
                                                                                          Attachment


                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                 Independent Auditors' Report



Secretary and Acting Inspector General,
U.S. Department of the Interior:


We have audited the accompanying balance sheets of the U.S. Department of the Interior
(Interior) as of September 30, 2012 and 2011, and the related statements of net cost, changes in
net position, budgetary resources, and custodial activity for the years then ended (hereinafter
referred to as "financial statements"). The objective of our audits was to express an opinion on
the fair presentation of these financial statements. In connection with our fiscal year 2012 audit,
we also considered Interior's internal control over financial reporting and tested Interior's
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements that could have a direct and material effect on these financial statements.

Summary
As stated in our opinion on the fmancial statements, we concluded that Interior's financial
statements as of and for the years ended September 30, 2012 and 2011, are presented fairly, in
all material respects, in conformity with U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements, Interior changed its presentation for
reporting the Statement of Budgetary Resources in fiscal year 2012.

Our consideration of internal control over financial reporting resulted in identifying certain
deficiencies that we consider to be significant deficiencies, as defined in the Internal Control
Over Financial Reporting section of this report, as follows:

A. Information Technology Controls Over Financial Management Systems
B. Controls Over Future Operating Lease Payments
C. Grant Monitoring Controls

We did not identify any deficieneies in internal control over financial reporting that we consider
to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
this report.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and
grant agreements disclosed the following instance of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the Comptroller
General of the United States, and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U S member firm of KPMG International Cooperative
                                ("KPfv1G International"), a Swiss entity.
D. Single Audit Act Amendments of 1996

The following sections discuss our opinion on Interior's financial statements; our consideration
of Interior's internal control over financial reporting; our tests of Interior's compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements; and
management's and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of the Interior as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the U.S. Department of the Interior as of September 30, 2012 and 2011,
and its net costs, changes in net position, budgetary resources, and custodial activity for the years
then ended, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 18 to the financial statements, Interior changed its presentation for
reporting the Statement of Budgetary Resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result,
Interior's Statement of Budgetary Resources for fiscal year 2011 has been adjusted to conform to
the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management's
Discussion and Analysis, Required Supplementary Information, and Required Supplementary
Stewardship Information sections be presented to supplement the basic financial statements.
Such information, although not a part of the basic financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or
historical context. We have applied certain limited procedures to the required supplementary
information in accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management's responses to our
inquiries, the basic financial statements, and other knowledge we obtained during our audits of
the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express
an opinion or provide any assurance.

The information in the Message From the Secretary, About This Report, Message From the
Chief Financial Officer, and Other Accompanying Information sections is presented for the
purposes of additional analysis and are not a required part of the basic financial statements. Such
information has not been subjected to the auditing procedures applied in the audits of the basic




                                                 2
financial statements, and accordingly, we do not express an opinion or provide any assurance on
the information.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in internal control over financial reporting that might be deficiencies, significant
deficiencies, or material weaknesses. In our fiscal year 2012 audit, we did not identify any
deficiencies in internal control over financial reporting that we consider to be material
weaknesses, as defined above. However, we identified certain deficiencies in internal control
over financial reporting described below that we consider to be significant deficiencies in
internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

A. Information Technology Controls Over Financial Management Systems

Interior did not have adequate information technology controls to protect its financial
management systems as required by OMB Circular No. A-130, Management of Federal
Information Resources. These conditions could affect Interior's ability to prevent and detect
unauthorized changes to financial information, control electronic access to sensitive information,
and protect its information resources. Although Interior has improved its application and general
controls, Interior should continue improving the information technology controls over its
financial management systems, as discussed below.

1. Access Controls
Access controls protect financial and sensitive information from unauthorized modification,
disclosure, and loss; however, Interior did not fully establish controls to prevent and detect
unauthorized access. Interior did not consistently document review and approval of user access
and recertify user access for three applications, did not consistently remove terminated users'
access for four applications timely, and did not establish controls over contractor access to
applications. In addition, one component did not complete an effective review of restrictions of
physical access rights to data.




                                                 3
2. Configuration Management
Configuration management controls ensure that only authorized programs and modifications are
implemented. Interior did not consistently test and approve changes prior to implementation for
one application. In addition, Interior has not fully segregated responsibilities for developing,
testing and migrating changes at one component, did not fully segregate user roles and
responsibilities for one application, and did not configure one application to segregate
responsibilities for the entering, reviewing, and approving of journal entries.

3. Security Program
A security program is the foundation of an entity's security control structure. Interior did not
fully conduct an assessment of security controls documented in one of its system security plans.

Recommendations
We recommend that Interior continue to improve the information technology controls over its
financial management systems to provide adequate security and protection of the systems as
follows :
1. Document review and approval of user access, recertify user access, remove access for
     terminated users, establish controls over contractor access to applications, and periodically
     review and approve physical access rights.
2. Test and approve software changes prior to implementation and fully segregate
     responsibilities for software changes, user roles, and journal entries.
3. Conduct an assessment of security controls as part of the security program.

Management Response
Management has prepared an official response presented as a separate attachment to this report.
In summary, management agreed with our findings and its comments were responsive to our
recommendations.

B. Controls Over Future Operating Lease Payments

Interior is required to disclose future operating lease payments in accordance with the
accounting standards. In fiscal year 2012, Interior issued guidance for identifying and reporting
future operating lease payments as required by the accounting standards; however, Interior's
components did not consistently follow the guidance. Specifically, four Interior components did
not report all future operating lease payments and another Interior component did not properly
calculate its future operating lease payments. As a result, the total future operating lease
payments were understated by approximately $301 million. In response to our observations,
Interior analyzed and adjusted the future operating lease payments disclosure.




                                                4
Recommendations
We recommend that Interior improve its controls over future operating lease payments as
follows:
1. Review the future operating lease payment guidance with the individuals responsible for
     preparing the future operating lease payment schedules and determine if such guidance
     should be clarified or include additional monitoring procedures.
2. Require a second individual to verify the mathematical accuracy of the future operating lease
     payment schedules.
3. Require the Office of Financial Management to review each component's future operating
     lease payment schedule for consistency and compliance with Interior's guidance.

Management Response
Management has prepared an official response presented as a separate attachment to this report.
In summary, management agreed with our findings and its comments were responsive to our
recommendations.

C. Grant Monitoring Controls

Interior is required to monitor its grantees in accordance with the Single Audit Act Amendments
of 1996, the related OMB Circular No. A-133, Audits of States, Local Governments, and Non-
Profit Organizations (OMB Circular No. A-133), and other laws. Interior did not clearly
communicate grant monitoring responsibilities. As a result, Interior did not obtain single audit
reports within nine months of the grantee's fiscal year-end for 19 of 58 grantees tested and did
not issue management decisions on audit findings within six months after receipt of single audit
reports for 1 of the 58 grantees tested. Interior also did not obtain or follow up on past due
financial, narrative, and progress reports for 16 of the 50 grants tested.

Recommendations
We recommend that Interior improve its grant monitoring process as follows:
1. Continue to communicate the updated grant monitoring policies and procedures to those
   responsible for implementing such policies and procedures.
2. Develop a grant monitoring process that identifies grantees requiring single audit reports,
   grantees missing single audit reports, and single audit reports needing management decisions
   on audit findings.
3. Periodically query the Federal Audit Clearinghouse to identify missing single audit reports
   and single audit reports needing management decisions on audit findings for all grants
   recorded in Interior's accounting systems.
4. Require component leadership to issue management decisions on audit findings within six
   months after receipt of single audit reports and verify that grantees take appropriate and
   timely corrective action.
5. Follow up on single audit, financial, narrative, and progress reports not received and
   consider the need to limit future grant awards until these reports are received.




                                               5
Management Response
Management has prepared an official response presented as a separate attachment to this report.
In summary, management agreed with our findings and its comments were responsive to our
recommendations.

Exhibit I presents the status of prior year significant deficiencies and material weakness.

Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of
this report, exclusive of those referred to in the Federal Financial Management Improvement Act
of 1996 (FFMIA), disclosed one instance of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04, and is
described below.

D. Single Audit Act Amendments of 1996

As discussed in the Internal Control Over Financial Reporting section of this report, Interior did
not perform adequate monitoring of grantees in accordance with the Single Audit Act
Amendments of 1996, the related OMB Circular No. A-133, and other laws. Interior did not
consistently obtain and review financial, narrative, progress, and single audit reports, issue
management decisions on audit findings, and monitor grantees timely.

Recommendation
We recommend that in fiscal year 2013, Interior obtain and review financial, narrative, progress,
and single audit reports, issue management decisions on audit findings, and monitor grantees to
ensure compliance with the Single Audit Act Amendments of 1996, the related OMB Circular No.
A-133, and other laws.

Management Response
Management has prepared an official response presented as a separate attachment to this report.
In summary, management agreed with our fmdings and its comments were responsive to our
recommendations.

The results of our other tests of compliance as described in the Responsibilities section of this
report, exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or
other matters that are required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which Interior's financial
management systems did not substantially comply with the (1) Federal financial management
systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level.




                                                 6
We noted certain additional matters that we will report to management of Interior in a separate
letter.


                                          *******
Responsibilities
Management's Responsibilities. Management is responsible for the financial statements;
establishing and maintaining effective internal control over financial reporting; and complying
with laws, regulations, contracts, and grant agreements applicable to Interior.

Auditors' Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012
and 2011 financial statements of Interior based on our audits. We conducted our audits in
accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and OMB Bulletin No. 07-04. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of Interior's internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management;
      and
•     Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered Interior's internal control
over financial reporting by obtaining an understanding oflnterior's internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing
our opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of Interior's internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness oflnterior's internal control over financial reporting. We
did not test all controls relevant to operating objectives as broadly defined by the Federal
Managers' Financial Integrity Act of 1982.




                                                7
As part of obtaining reasonable assurance about whether Interior's fiscal year 2012 financial
statements are free of material misstatement, we performed tests of Interior's compliance with
certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with
which could have a direct and material effect on the determination of the financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04, including the provisions referred to in Section 803(a) of FFMIA. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws, regulations, contracts, and grant agreements applicable to Interior.
However, providing an opinion on compliance with laws, regulations, contracts, and grant
agreements was not an objective of our audit and, accordingly, we do not express such an
opinion.



Interior's written response to the findings identified in our audit, and presented as a separate
attachment to this report, was not subjected to the auditing procedures applied in the audit of
Interior's financial statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of Interior's management, Interior's
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 15, 2012




                                               8
                                                                                           Exhibit I


                           U.S DEPARTMENT OF THE INTERIOR
                                     Status of Prior Year Findings
                                         September 30,2012


FY2011
 Ref          Fiscal Year 2011 Finding                       Status of Fiscal Year 2011 Findings

  A      Controls over Contingencies                  Corrective actions implemented.


  B      Information Technology Controls              This condition has not been corrected and is
         over Financial Management Systems            repeated in fiscal year 2012. See finding A.

  c      Controls over Undelivered Orders             Corrective actions implemented.

  D      Grant Monitoring Controls                    This condition has not been corrected and is
                                                      repeated in fiscal year 2012. See finding C.

  E      Single Audit Act Amendments of 1996          This condition has not been corrected and is
                                                      repeated in fiscal year 2012. See finding D.

  F      Federal Financial Management                 Corrective actions implemented.
         ImprovementActof1996




                                                  9
                                                                                       Attachment

                    United States Department of the Interior
                                OFFICE OF THE SECRETARY
                                    Washington, DC 20240

                                            NOV 1 4 2012
Memorandum

To:       Mary L. Kendall
          Acting Inspector General

          KPMGLLP
          2001 M Street, NW
          Washi ngton , DC 20036

From:     Rhea Suh    /kM-
          Assistant Secretary - Policy, Management and Budget and
          ChiefFinancial Officer

Subject: Management's Response to Independent Auditors' Report for Fiscal Year 2012
         (Assignment No. X-IN-MOA-0002-2012)

The Department of the Interior (Department) has reviewed the draft Auditors' Report prepared
by KPMG LLP. We are pleased that the result of the audit is an unqualified opinion on the
Department's Consolidated Financial Statements and that no material weaknesses were found .
The Department appreciates the recognition noted of the progress we have achieved during
Fiscal Year (FY) 2012 in further improving our financial management. We also appreciate the
recommendations and notes from the auditors. We look forward to working with you to continue
improving financial management in the Department. Our response to the findings and
recommendations follow.

INTERNAL CONTROL OVER FINANCIAL REPORTING

A.      Information Technology Controls over Financial Management Systems

        Management concurs. During FY 2012, Interior continued to improve its information
        technology controls including policies and guidance. Significant gains have been made
        and will continue with deployment of the Financial and Business Management System
        (FBMS) and the termination of legacy systems. Through FBMS deployments and other
        means, in FY 2013, we will continue to enhance application and general controls over
        financial management systems with a specific focus on the areas of access controls,
        configuration management, and service continuity. We strive to improve and strengthen
        the related programmatic aspects of Information Technology (IT) security programs
        (including awareness training) and will continue to review all aspects of the IT program
        for refinement. We are in the process of implementing reforms including the
        consolidation of information technology infrastructure, management, and oversight that
        will improve the efficiency and effectiveness of IT services and our ability to ensure the
        implementation of policies and controls.
B.     Controls Over Future Operating Lease Payments

       Management concurs. Management will convene a working group to review the current
       lease policy to determine if additional policy or clarification is needed in order to assure
       consistency in the implementation of the policy. In addition, management will consider
       what approval and monitoring options should be employed to further ensure that our
       future lease payment disclosures are accurate.

C.     Grant Monitoring Controls

       Management concurs. Management will continue to improve grantee communication
       and outreach procedures to yield a timelier and more effective single audit recipient and
       follow-up process. The Department is currently developing a process that compares a
       listing of grantees from FBMS to listings of Department grantees and their audit reports
       in the Single Audit Clearing House. In addition, we are exploring methods for
       reporting/monitoring the status of grantee audit reports and the status of management's
       decisions on audit findings in the grantee audit reports. Interior will continue to work
       with the components to ensure that all necessary reports are obtained and that
       management decisions on audit findings are issued in a timely and compliant manner. In
       FY 20 13, Interior will also evaluate its grant monitoring policies and processes to ensure
       that grant monitoring roles and responsibilities are properly defined and communicated.

COMPLIANCE AND OTHER MATTERS

D.     Single Audit Act Amendments o(1996

       Management concurs. As noted in the Grant Monitoring Controls section above, the
       Department will work to obtain single audit reports and management decisions in a
       timely manner. Enhancements will continue to be made to the business process for
       complying with the Single Audit Act Amendments of 1996.

In closing, I would like to thank your offices for their contribution to a strong and ever
improving internal control environment with the Department of the Interior. We are committed
to the continuous improvement of our financial management activities.
